                      U.S. ENVIRONMENTAL PROTECTION AGENCY

                      OFFICE OF INSPECTOR GENERAL




                     EPA Met or Exceeded Most
                     Internal Climate Change Goals,
                     But Data Quality and Records
                     Management Procedures
                     Need Improvement
                     Report No. 14-P-0325                    July 29, 2014




Scan this mobile
code to learn more
about the EPA OIG.
 This is one of the U.S. Environmental Protection Agency Office of Inspector General’s
 products associated with climate change. For details on our other reports on climate
 change, go to http://www.epa.gov/oig/climatechange.

Report Contributors:                                Rudolph M. Brevard
                                                    Hilda Canes Garduño
                                                    Leon Carter
                                                    Christine El-Zoghbi
                                                    Michael Goode
                                                    Bram Hass
                                                    Eric Jackson
                                                    Doug LaTessa
                                                    Eric Lewis
                                                    Nyquana Manning
                                                    Nicole Pilate
                                                    Teresa Richardson
                                                    Brooke Shull
                                                    Mary Anne Strasser

Abbreviations
EPA            U.S. Environmental Protection Agency
FY             fiscal year
GHG            greenhouse gas
OARM           Office of Administration and Resources Management
OIG            Office of Inspector General
OMB            Office of Management and Budget
SSPP           Strategic Sustainability Performance Plan

Cover photo:     Green roof, wind turbines and solar panels at the EPA’s Atlantic Ecology
                 Division Laboratory in Narragansett, Rhode Island. (EPA photo)



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact us    To make suggestions for audits or evaluations,
through one of the following methods:          contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                                   14-P-0325
                                                                                                            July 29, 2014
                        Office of Inspector General


                        At a Glance
Why We Did This Review              EPA Met or Exceeded Most Internal Climate
The congressional Bicameral         Change Goals, But Data Quality and Records
Task Force on Climate Change
requested that we assess            Management Procedures Need Improvement
U.S. Environmental Protection
Agency (EPA) implementation          Most Climate Change Goals Met
of policies that address climate
change at EPA facilities to         The EPA adhered to most climate change                  Improving data quality and
                                    requirements for federal agencies. With a few           records management
ensure the EPA was meeting
                                    exceptions, the EPA provided documentation to           procedures can support
requirements.                                                                               confidence in the reliability
                                    support its reported 2012 accomplishments. The
                                                                                            of EPA's progress reports
To address this request, we         EPA exceeded its climate change goals and
                                                                                            on its climate change goals.
evaluated the EPA’s                 requirements related to water use, greenhouse
implementation of requirements      gas emissions and renewable energy. The EPA was one of only three agencies
under Executive Order 13514,        out of 25 reporting that received a green scorecard on the OMB sustainability
“Federal Leadership in              scorecard for fiscal year (FY) 2013 and has achieved a green scorecard the last
Environmental, Energy, and          3 years. In addition, the EPA voluntarily tracks and reports data for its leased
Economic Performance.” To           buildings that are 50,000 square feet or larger. In response to the
meet the requirements of the        recommendation from the 2011 OIG report, the EPA incorporated a review of its
order, the EPA developed a          greenhouse gas reduction goals as part of its annual Strategic Sustainability
2012 Strategic Sustainability       Performance Plan submission, and it agreed to make adjustments to the overall
Performance Plan that               reduction goal as needed. Since the agency is on track to meet its 2020
identified its progress in          greenhouse gas reduction goals and it has developed a process to revise the
meeting internal agency goals       goals, we believe this prior OIG recommendation has been addressed.
related to greenhouse gas
emissions, among others.             Areas Where Improvements Are Needed
We also reviewed the EPA’s          We identified several internal control weaknesses in the EPA’s data quality
implementation of EPA Office        assurance procedures and adherence to its Records Management Policy that
of Inspector General (OIG)          need to be addressed. The agency relies heavily on a contractor to collect water
recommendations made in             and energy data used in the 2012 Strategic Sustainability Performance Plan and
2011 to adjust its greenhouse       also relies on the contractor to perform its own quality assurance review of data
gas reductions goal based on        presented in the plan, which, due to EPA inattention, could increase the
funding and project status.         likelihood that inaccurate data gets overlooked. Further, we identified data errors
                                    in the plan. The agency also lacks sufficient internal controls for electronic
This report addresses the           stewardship and data center accomplishments reported in the plan. Additionally,
following EPA goals or              we identified areas where the EPA was not in full compliance with the agency’s
cross-agency strategies:            Records Management Policy. Specifically, EPA accomplishment data reported in
                                    the 2012 Strategic Sustainability Performance Plan related to fleet management,
  Addressing climate change
                                    waste diversion and acquisitions have not been appropriately maintained and
   and improving air quality.
                                    documented.
  Working toward a
   sustainable future.               Recommendations and Planned Agency Corrective Actions
For further information,            We recommend that the agency establish procedures to conduct a quality
contact our public affairs office
at (202) 566-2391.
                                    assurance review of Strategic Sustainability Performance Plan data provided by
                                    the contractor and EPA program offices. We also recommend that the agency
The full report is at:              develop and implement procedures for maintaining and securing records
www.epa.gov/oig/reports/2014/       associated with production of the annual Strategic Sustainability Performance
20140729-14-P-0325.pdf              Plan in accordance with the EPA’s Records Management Policy. The agency
                                    agreed with our recommendations and provided a corrective action plan.
                          UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                       WASHINGTON, D.C. 20460

                                                                                  THE INSPECTOR GENERAL




                                             July 29, 2014

MEMORANDUM

SUBJECT:      EPA Met or Exceeded Most Internal Climate Change Goals,
              But Data Quality and Records Management Procedures Need Improvement
              Report No. 14-P-0325

FROM:         Arthur A. Elkins Jr.

TO:           Craig Hooks, Assistant Administrator
              Office of Administration and Resources Management

This is our report on the subject review conducted by the Office of Inspector General (OIG) of the
U.S. Environmental Protection Agency (EPA). This report contains findings that describe the problems
the OIG has identified and corrective actions the OIG recommends. This report represents the opinion of
the OIG and does not necessarily represent the final EPA position. Final determinations on matters in
this report will be made by EPA managers in accordance with established audit resolution procedures.

The EPA office having primary jurisdiction over the issues evaluated is the Office of Acquisition
Management within the Office of Administration and Resources Management.

Action Required

In accordance with EPA Manual 2750, your office provided acceptable and complete planned corrective
actions in response to OIG recommendations. All recommendations are resolved and no final response
to this report is required. We will post this report to our website at http://www.epa.gov/oig.
EPA Met or Exceeded Most Internal Climate Change Goals, But Data                                                          14-P-0325
Quality and Records Management Procedures Need Improvement




                                    Table of Contents
   Why We Did This Review ..........................................................................................             1

   What the Executive Order Says................................................................................                 1

   EPA Met Most of Its 2012 Planned Climate Change Goals .....................................                                   3

          Goal 1: GHG Reduction and Inventory Requirements for Management ..............                                         4
          Goal 2: Buildings and Energy Use ......................................................................                5
          Goal 3: Fleet Management .................................................................................             7
          Goal 4: Water Use ..............................................................................................       7
          Goal 5: Pollution Prevention and Waste Reduction .............................................                         8
          Goal 6: Acquisition..............................................................................................      8
          Goal 7: Electronics and Data Centers .................................................................                 8
          Goal 8: Agency Innovation ..................................................................................           9

   Areas Where Improvements Are Needed ................................................................                          9

          EPA Relies on Contractor to Verify SSPP Data ..................................................                        10
          Improved Controls Needed for Electronic Acquisitions Database .......................                                  10
          Improved Controls Needed to Verify Data Center Performance Metrics .............                                       10
          Improved Record Keeping Procedures Can Ensure Data Accuracy....................                                        11

   Recommendations ....................................................................................................          11

   Agency Response to Draft Report and OIG Evaluation ..........................................                                 12

   Status of Recommendations and Potential Monetary Benefits .............................                                       13



 Appendices
   A      Scope and Methodology ..................................................................................               14

   B      Agency Response to Draft Report and OIG Comments .................................                                     15

   C      Distribution .......................................................................................................   24
  Why We Did This Review

            The congressional Bicameral Task Force on
            Climate Change requested that the U.S.
            Environmental Protection Agency’s (EPA’s)
            Office of Inspector General (OIG) assess the
            agency’s implementation of policies that address
            climate change. The task force sent similar
            requests to nearly 70 Inspectors General
            throughout the federal government. To address
            this request, the EPA OIG evaluated the EPA’s
            implementation of Executive Order 13514,
            “Federal Leadership in Environmental, Energy,
            and Economic Performance,” as documented in
            the EPA’s 2012 Strategic Sustainability
            Performance Plan (SSPP). Executive Order
            13514 (referred to in this report as the Executive
            Order) establishes an integrated strategy toward     Figure 1: EPA’s 2012 SSPP report
                                                                 is at: http://www.epa.gov/oaintrnt/
            sustainability in the federal government and         documents/sspp2012_508.pdf
            makes reduction of greenhouse gas (GHG)              (Source: EPA website)
            emissions a priority for all federal agencies.

            Our objectives were to:

               (1) Conduct a follow-up review on the EPA’s implementation of the OIG’s
                   recommendation to “make adjustments to the GHG emission reductions
                   and/or reduction goals based on actual funding and status of projects, and
                   revise the EPA’s overall reduction goal if needed during the annual update
                   of the Strategic Sustainability Performance Plan.” This recommendation
                   was made, and agreed to by the EPA, in the OIG’s April 2011 Report No.
                   11-P-0209, EPA’s Plan to Reduce Agency Greenhouse Gas Emissions
                   Is on Track to Meet Executive Order 13514 Requirements.

               (2) Assess the extent to which the agency is meeting its 2012 SSPP
                   objectives.

  What the Executive Order Says

            To promote energy security and protect the health of our environment, President
            Obama signed Executive Order 13514 on October 5, 2009. The Executive Order
            requires all federal agencies to meet specific goals related to the reduction of
            GHG emissions, conservation of water resources, local planning, fleet
            management, energy efficiency, electronics stewardship, pollution prevention and
            the advancement of sustainable acquisitions. The Executive Order requires


14-P-0325                                                                                          1
            agencies to develop targets for GHG emissions reductions based on the “scope” of
            emissions sources, as described below and illustrated in figure 2.

                   Scope 1 emissions are direct GHG emissions from sources owned or
                    controlled by the EPA. This includes emissions from fossil fuels burned
                    onsite, from EPA-owned or -leased vehicles, and other direct sources.

                   Scope 2 emissions include indirect emissions resulting from the
                    generation of EPA-purchased electricity, heat or steam power.

                   Scope 3 emissions include indirect emissions from sources not owned or
                    directly controlled by the EPA but related to its activities, such as
                    employee business travel, local commuting and waste disposal.




             Figure 2: Sources of Scope 1, 2 and 3 GHG emissions. (Source: EPA website)


            Requirements for Management of Climate Change Goal
            Accomplishment Data

            We identified three requirements that apply to the EPA’s management of its
            climate change goal data.

            First, federal agencies are required to describe how they will achieve the
            environmental, economic and energy goals mandated by the Executive Order in
            an SSPP. The SSPP must be updated annually and submitted to the White House
            Council on Environmental Quality and the Office of Management and Budget
            (OMB). In the SSPP, the EPA must identify specific agency goals and milestones,
            as well as activities, plans and procedures relevant to the agency’s implementation
            of the order. In addition, all federal agencies must establish and report a GHG
            inventory to the OMB. The EPA’s Assistant Administrator for the Office of
            Administration and Resources Management (OARM) is the Senior Sustainability
            Officer responsible for ensuring implementation of the Executive Order at the



14-P-0325                                                                                     2
            EPA. To ensure compliance with the order, the EPA has informed its senior
            managers—including Assistant Administrators, Regional Administrators and
            Laboratory Directors—of their responsibilities in implementing the Executive
            Order requirements.

            Second, the EPA has other general requirements and responsibilities related to
            internal controls that apply to its SSPP reporting data. OMB Circular A-123,
            “Management’s Responsibility for Internal Control,” dated December 2004,
            defines internal control responsibilities in federal agencies. It states that
            management is responsible for establishing and maintaining internal control to
            achieve the objectives of effective and efficient operations, reliable financial
            reporting, and compliance with applicable laws and regulations. For example,
            good internal controls include appropriate documentation and access to that
            documentation. OMB Circular A-123 also states that periodic reviews,
            reconciliations or comparisons of data should be included as part of the regular
            assigned duties of federal agency personnel, and periodic assessments should be
            integrated as part of management’s continuous monitoring of internal control.

            Third, the agency has internal records management requirements. The EPA’s
            Records Management Manual outlines requirements and responsibilities related to
            maintaining, securing, disposing and transferring of agency records. EPA offices
            must capture records to:

                   Maintain adequate and proper documentation and evidence of agency
                    activities for the time required to meet all program, audit and historical
                    need.
                   Maximize the usefulness of the records while active and allow for
                    interoperability and sharing of records across programs and information
                    systems.
                   Allow for timely access and retrieval.
                   Safeguard records from loss, misuse, and unauthorized access to or
                    modification of information.
                   Facilitate the identification and preservation of permanent records.

  EPA Met Most of Its 2012 Planned Climate Change Goals

            Overall, we found that the EPA met or exceeded most federal sustainability
            requirements under the Executive Order, as reported in the 2012 SSPP. With a
            few exceptions noted later, the EPA provided documentation to support its
            reported SSPP accomplishments. The EPA has guidance for the collection and
            verification of data on GHG emissions and energy and water use, and the
            guidance is updated annually and includes data quality assurance procedures.




14-P-0325                                                                                        3
                         The OMB uses a scorecard process to measure the federal government’s
                         sustainability performance. The scorecard employs a simple evaluation system:
                         green for success; yellow for mixed results; and red for unsatisfactory. Through
                         the OMB scorecard process, agencies are assessed on several sustainability areas,
                         including: energy intensity, water intensity, fleet petroleum use, GHG pollution,
                         green building practices and renewable energy use. The EPA was one of only
                         three agencies out of 25 reporting that received a green scorecard on the OMB
                         sustainability scorecard for fiscal year (FY) 2013. The EPA has achieved a green
                         scorecard the last 3 years. Our analysis of the EPA’s 2012 SSPP accomplishments
                         for each goal is summarized below.

                         Goal 1: GHG Reduction and Inventory Requirements for Management

                         We confirmed that the EPA is on track to meet its
                         goals related to GHG emissions.1 The EPA’s FY 2020
                         goal for Scope 1 and 2 GHG emission reductions is
                         25 percent from its FY 2008 baseline. For Scope 3
                         emissions, the EPA’s goal is an 8 percent reduction
                         from its FY 2008 baseline. We verified that the EPA
                         had records and data to demonstrate that it reduced its
                         Scope 1 and 2 emissions by a combined 57 percent
                         and its Scope 3 emissions by 10 percent in FY 2011.     Videoconference equipment is used
                         As stated in the SSPP, the EPA achieved these           by the EPA to reduce business travel
                         reductions through energy efficiency projects at its    emissions. (Source: EPA website)
                         facilities, improved fleet management practices and
                         green power purchases. The EPA’s renewable energy purchases enabled the
                         agency to reduce its reported GHG emissions under current guidance from the
                         White House Council on Environmental Quality.

                                                                                In addition, the EPA tracked and
                                                                                reported GHG emissions data for both
                                                                                required and non-required facilities.
                                                                                Although agencies are not required to
                                                                                report GHG emissions for facilities
                                                                                that are leased, the EPA collects
                                                                                facility GHG data for its leased
                                                                                buildings that are 50,000 square feet
                                                                                or larger on a quarterly basis and
                                                                                voluntarily reports these emissions.

                                                                                To verify GHG emissions data, which
Roof-top solar panels supply “green” electricity to the EPA’s National Health   include data on the agency’s energy
and Environmental Effects Research Laboratory in Corvallis, Oregon.
(Source: EPA website)
                                                                                and water use, renewable energy
                                                                                purchases, and commuter and business
                                                                                travel emissions, we reviewed
    1
        GHG emissions are measured in metric tons of carbon dioxide equivalent.


    14-P-0325                                                                                                       4
                 spreadsheets compiled by the EPA’s contractor. We also reviewed original data
                 from utility bills and renewable energy contracts for a sample of EPA facilities.

                 In response to the recommendation from our FY 2011 report, the agency
                 incorporated a review of its GHG reduction goals as part of its annual SSPP
                 submission, and it agreed to make adjustments to the overall reduction goal based
                 on the previous year’s progress and available funding. Since the agency is on
                 track to meet its 2020 GHG reduction goals, and it has developed a process to
                 revise the goals if needed, we believe this recommendation has been addressed.

                 Goal 2: Buildings and Energy Use

                 We confirmed through data and document
                 reviews the agency’s reported achievements
                 in meeting its goals for energy intensity,
                 high performance sustainable buildings,
                 Energy Savings Performance Contracts and
                 regional/local planning initiatives.

                 Energy Use. The EPA is required to reduce
                 its energy intensity by 3 percent annually.2
                 EPA data shows that the agency achieved its
                 FY 2011 energy intensity reduction goal of
                 18 percent. The agency achieved energy
                 savings by initiating and completing several Solar lighting lines the roadways at the EPA’s
                 major capital improvement projects to          Research Triangle Park facility in North
                                                                Carolina. According to the EPA, this is the
                 improve energy efficiency at its facilities in
                                                                longest stretch of solar-luminated roadway in
                 FY 2011. The agency also derived               the United States. Solar lighting is part of the
                 0.68 percent of its energy use from onsite     agency’s green power efforts. (Source: EPA
                 renewable resources, such as wind, solar and website)
                 geothermal power.3 In addition, the agency
                 was required to complete energy assessments at 75 percent of high-energy use
                 facilities by FY 2011. We determined, based on data collected by the EPA’s
                 contractor, that the agency exceeded the 75 percent target and completed more
                 than the required number of assessments (78 percent).




2
 Energy intensity is energy use (measured in British thermal units) per gross square foot.
3
 The EPA has onsite renewable resources at 12 facilities, located in: Athens, Georgia; Chelmsford, Massachusetts;
Narragansett, Rhode Island; Edison, New Jersey; Montgomery, Alabama; Research Triangle Park, North Carolina
(Main Office, National Computer Center and Childcare Center); Ada, Oklahoma; Golden, Colorado; Manchester,
Washington; and Corvallis, Oregon.


14-P-0325                                                                                                           5
  Advanced electric meter and boiler at the EPA’s laboratory in Manchester, Washington. The EPA is
  required to install advanced metering equipment to capture energy consumption at its facilities to the
  maximum extent practicable. The EPA also initiated a project at its Manchester lab to retrofit fuel oil-fired
  boilers with natural gas to reduce GHG emissions and save on fuel costs. (EPA photos)

                                                                            High Performance Sustainable
                                                                            Buildings. We confirmed that EPA
                                                                            documentation supports its 2012 SSPP
                                                                            accomplishments related to sustainable
                                                                            building management. For example, we
                                                                            verified documentation demonstrating
                                                                            the EPA’s claims that 7.8 percent of the
                                                                            agency’s buildings measuring greater
                                                                            than 5,000 square feet met the Guiding
                                                                            Principles for Federal Leadership in
                                                                            High Performance and Sustainable
                                                                            Buildings in FY 2011. We also
                                                                            confirmed through records review that
  The EPA Region 8 building’s green roof in Denver, Colorado, is            45 construction projects and lease
  an example of sustainable building practices used by the agency.          actions went through the EPA’s
  The roof helps to regulate building temperature, reduce
  stormwater runoff and absorb carbon dioxide.
                                                                            GreenCheck process, which applies
  (Source: EPA website)                                                     sustainability requirements to projects
                                                                            requiring funding in excess of $85,000.

                  Energy Savings Performance Contracts. The Energy Savings Performance
                  Contracts initiative required federal agencies to enter into a minimum of
                  $2 billion in performance-based contracts to improve federal building energy
                  efficiency by December 2013. We confirmed that the EPA identified two potential
                  Energy Savings Performance Contracts, totaling $9 million. The agency plans to
                  pursue other proposed contracts to determine whether they are economically
                  feasible and advantageous.

                  Regional/Local Planning. The agency’s accomplishments in regional and local
                  planning include participation in the Partnership for Sustainable Communities,
                  and cooperation with other federal agencies to publish information resources
                  about sustainable strategies for locating federal facilities.




14-P-0325                                                                                                          6
                 Goal 3: Fleet Management

                 We confirmed the EPA’s accomplishments
                 related to fleet management and fossil fuel
                 reductions by reviewing agency fleet data in
                 the Federal Automotive Statistical Tool
                 database. The agency is required to reduce
                 its petroleum consumption by 30 percent by
                 FY 2020 from its FY 2005 baseline. The
                 EPA’s fleet data show that it reduced
                 petroleum consumption by approximately
                 33 percent in FY 2011 from its 2005                      Photo of plug-in hybrid vehicle. The EPA
                                                                          acquired 153 alternative fuel vehicles to reduce
                 baseline. This reduction more than doubled               its petroleum consumption and increase its
                 the EPA’s interim petroleum reduction target             alternative fuel consumption in FY 2011.
                 of 12 percent for FY 2011.                               (Source: www.fueleconomy.gov)

                 As reported in the SSPP, the EPA did not
                 reach its requirement to increase alternative fuel4 consumption by 10 percent
                 annually. The agency’s FY 2011 alternative fuel consumption was approximately
                 32 percent less than its target of 79,000 gasoline gallon equivalents. Additionally,
                 EPA fleet data support that the agency exceeded its Energy Policy Act
                 requirement to ensure that at least 75 percent of vehicle acquisitions were
                 alternative fuel vehicles, excluding law enforcement and emergency response
                 vehicles. The agency also eliminated 42 vehicles from its fleet in FY 2011.

                 Goal 4: Water Use

                 The EPA is required to improve its water use
                 efficiency and management by reducing
                 potable water consumption intensity5 by
                 2 percent annually through FY 2020 relative
                 to its FY 2007 baseline (i.e., 26 percent). We
                 reviewed agency water use data to confirm
                 that the EPA reduced its potable water use
                 intensity by more than 15 percent in FY 2011 Water cistern used to collect and store
                 from its FY 2007 baseline. The agency also is rainwater for landscaping at childcare center
                                                                   at the EPA’s Research Triangle Park facility
                 required to reduce its non-potable water          in North Carolina. (Source: EPA website)
                 consumption for industrial, landscaping and
                 agricultural uses by 2 percent annually through FY 2020 compared to its FY 2010
                 baseline (i.e., 20 percent). Agency data support that the EPA reduced its non-
                 potable water use by 58 percent in FY 2011 from the prior year. The EPA
                 achieved this through water conservation and storm water management projects.


4
  Alternative fuels are non-petroleum fuels. They include gaseous fuels such as hydrogen and natural gas, alcohols
such as ethanol, vegetable and waste-derived oils, and electricity.
5
  Water use intensity is measured in gallons per gross square foot per year.


14-P-0325                                                                                                              7
                 Goal 5: Pollution Prevention and Waste Reduction

                 We confirmed that the EPA has documentation to support its accomplishments on
                 pollution prevention and waste reduction as reported in the SSPP. The Executive
                 Order requires the EPA to minimize the generation of waste and pollutants
                 through source reduction, and divert6 at least 50 percent of non-hazardous solid
                 waste and 50 percent of construction and
                 demolition waste by the end of FY 2015.
                 EPA data show that it achieved a waste
                 diversion rate of 59 percent for
                 solid waste, as well as construction and
                 demolition waste, in FY 2011. We also
                 reviewed EPA documentation to confirm
                 that the agency is reducing waste through
                 prevention assessment projects and other The Think Beyond the Bin campaign, launched in
                 prevention efforts such as the              FY 2011, encourages facilities to strengthen their
                 agencywide “Think Beyond the Bin”           waste diversion efforts through source reduction,
                                                             recycling, reuse and composting. (Source: EPA
                 program.                                    Intranet website)

                 Goal 6: Acquisition

                 We were able to verify documentation for most of the EPA’s accomplishments
                 related to acquisition. The EPA Acquisition System has been fully implemented
                 agencywide and contains data fields for recording environmental attributes, such
                 as the energy or water efficiency of a product or service, or whether a product
                 contains recycled content. We also verified through document and data review
                 that the EPA implemented initiatives to improve acquisition planning, market
                 research and procurement data collection. However, we could not confirm the
                 agency’s assertion that it met or exceeded the Executive Order requirement to
                 procure 95 percent of new contracts with green attributes for 3 consecutive years
                 (2009, 2010 and 2011). Specifically, the methodology used to calculate the
                 percentage of new contract actions with green attributes was not documented
                 properly and could not be replicated.

                 Goal 7: Electronics and Data Centers

                 We were able to confirm through document and data review, software assessments
                 and a site visit to the EPA’s National Computer Center that the agency achieved
                 many of its reported SSPP accomplishments related to electronic stewardship and
                 data centers. The agency deployed software that is capable of establishing power-
                 management settings for computers and monitors to 100 percent of all eligible
                 EPA computers and monitors. Also, we verified that the EPA’s personal computer
                 standard details numerous “green” requirements in accordance with the Executive

6
 Waste diversion is the prevention and reduction of generated waste through source reduction, recycling, reuse or
composting.




14-P-0325                                                                                                           8
                 Order. We also reviewed the EPA’s claim that “virtualization7 is extensively used
                 to support database hosting” at the EPA’s data centers. Virtualization enables
                 multiple operating systems to be located and independently operated from one
                 physical server instead of the “one server one operating system” platform
                 previously used. The EPA’s implementation of virtualization helps the agency
                 become more energy efficient by restructuring processes associated with server
                 operations. The consolidation of physical servers can save energy, translating to
                 savings of up to 80 percent in data center energy costs while reducing
                 infrastructure and capital costs. In this area we found that the EPA’s National
                 Computer Center has made significant strides in virtualizing its database hosting
                 infrastructure. As of 2012, the
                 National Computer Center had
                 virtualized 71 percent of its hosted
                 databases. However, as of 2012,
                 all EPA data centers had only
                 virtualized 38 percent of their
                 hosting infrastructure. We also
                 found that the EPA lacks internal       EPA policy requires that all of its retired electronic products
                                                         are reused, donated, sold or recycled using environmentally
                 controls to validate its electronic     sound management practices (Source: EPA website)
                 stewardship data.

                 Goal 8: Agency Innovation

                 The 2012 SSPP described future activities that the EPA would undertake, but it
                 did not report the EPA’s specific FY 2011 accomplishments for providing agency
                 innovation and governmentwide support for meeting the Executive Order goals.


    Areas Where Improvements Are Needed

                 We identified several instances where the EPA lacked sufficient internal controls
                 for gathering and reporting data in the 2012 SSPP. We found that the agency:

                         Lacked procedures to ensure that accurate data was reported and generated
                          by its contractor.
                         Did not have adequate procedures for verifying data accuracy in the
                          Federal Electronic Challenge database, which the EPA relies on for
                          reporting its electronic stewardship goals.
                         Does not have sufficient internal controls to verify performance metrics
                          for the EPA’s data centers.
                         Lacked procedures for data collection, storage and manipulation measures
                          (i.e., record keeping) for several metrics reported in the 2012 SSPP.


7
 According to the EPA’s Office of Environmental Information, “virtualization” is a “method of partitioning one or
more physical servers into multiple virtual machines.”


14-P-0325                                                                                                             9
            EPA Relies on Contractor to Verify SSPP Data

            A majority of the data reported in the 2012 SSPP related to GHG reduction,
            energy use and water use was managed by an EPA contractor. However,
            sufficient internal controls were not in place to verify the data collected and
            generated by the contractor. The EPA only seeks to verify the data if it sees an
            issue or problem with the data during a “visual check.” According to an EPA
            official, first-line facility managers check the data. While there is additional data
            quality review at headquarters, the OIG does not believe these data quality review
            processes are adequate. The EPA relies heavily on its contractor not only to
            collect the data used in the SSPP but to conduct “self-supervised” quality
            assurance reviews.

            Lack of sufficient internal controls resulted in the inclusion of undefined data in
            the SSPP. Specifically, because mileage data for privately owned vehicle usage
            are available on an annual basis only, the contractor did not have corresponding
            quarterly data for privately owned vehicles. The contractor had to use substitute
            privately owned vehicle data to calculate total EPA business travel GHG
            emissions for the second quarter of FY 2011 through the first quarter of FY 2012.
            The EPA deferred to the contractor to explain the substitute data. However, the
            contractor’s response did not explain how the substitute data was developed. The
            EPA’s lack of sufficient internal controls may increase the risk that inaccurate
            data is reported or accomplishments could be over- or understated in the SSPP.

            Improved Controls Needed for Electronic Acquisitions Database

            The agency did not implement an internal control process that ensures accuracy of
            Federal Electronic Challenge acquisitions. The Federal Electronic Challenge
            database is used to report data related to electronic stewardship goals. Some EPA
            locations that report data to the Federal Electronic Challenge database may
            provide supplemental documentation to validate the data, but this is not
            mandatory. A draft Standard Operating Procedure has been developed, but it has
            not been finalized and distributed to other EPA reporting locations.

            Improved Controls Needed to Verify Data Center Performance Metrics

            The EPA does not have sufficient internal controls to verify performance metrics
            for its data centers. As a result, we found that some accomplishments reported in
            the SSPP applied only to the EPA’s National Computer Center in Research
            Triangle Park, North Carolina, rather than to the EPA as a whole. Without
            procedures in place to assure accurate data collection, management and reporting,
            the EPA cannot affirm that the goal related to data centers is being accomplished
            as reported.




14-P-0325                                                                                      10
            Improved Record Keeping Procedures Can Ensure Data Accuracy

            We found that the EPA lacked procedures for data collection, storage and
            manipulation measures (i.e., record keeping) for several metrics reported in the
            2012 SSPP. The EPA did not maintain proper documentation on historical vehicle
            data, facility waste diversion records and compliance records for acquisitions.
            As outlined in the EPA Records Management Manual, EPA staff are required to
            maintain adequate and proper documentation and evidence of agency activities.
            Inadequate record keeping can mean decisions could appear unsupported and
            undocumented, and work completed may need to be repeated, which creates
            inefficiency. Specifically, we found the following:

                  Goal 3 Fleet Management database. Due to system limitations, the
                   EPA’s fleet database is incapable of generating or saving historical data on
                   the number of fleet vehicles used for emergency response and law
                   enforcement. The EPA’s emergency and law enforcement vehicles are
                   exempt from federal alternative fuel vehicle acquisition requirements.

                  Goal 5 Waste Diversion. Waste diversion data reported in the 2012 SSPP
                   was derived from a questionnaire distributed to EPA facilities and entered
                   into a tracking sheet, but the system used to track the information holds
                   75 percent rather than 100 percent of the agency’s locations.

                  Goal 6 Acquisition. OARM’s Office of Acquisition Management was not
                   able to reproduce the same results on the numbers of new EPA contracts
                   with green attributes, as they were originally reported in the 2012 SSPP.
                   Staff could not explain how the data were collected and analyzed because
                   key personnel retired.


  Recommendations

            We recommend that the Assistant Administrator for Administration and
            Resources Management:

               1. Establish procedures for OARM personnel to conduct a quality assurance
                  review of SSPP data provided by the contractor and EPA program offices.

               2. Develop and implement procedures for maintaining and securing records
                  associated with production of annual SSPP data, in accordance with the
                  EPA’s Records Management Policy. Specifically, assure that:

                      a. Fleet data reported in the SSPP are documented and accessible,
                         and can be reproduced using either the current fleet database or by
                         maintaining copies of historical data reports.



14-P-0325                                                                                   11
                       b. SSPP waste diversion data are documented for all facilities that can
                          provide it, and specify in future SSPP reports whether the waste
                          diversion rates are estimates or only represent specific facilities.
                       c. Findings and results associated with the acquisitions information in
                          the SSPP report can be reproduced, including records of the data
                          and methodology used. These records should be properly
                          maintained, and should be accessible for the time period required
                          by the EPA’s Records Management Policy.


  Agency Response to Draft Report and OIG Evaluation

            We received comments on the draft report from the OARM and the Office of
            Environmental Information (appendix B). The agency’s response included some
            technical comments, which were incorporated into the final report as appropriate.
            The agency agreed with all recommendations and provided a corrective action
            plan, as well as estimated completion dates for each corrective action. The plan
            provided steps the agency will take to address the recommendations, including
            many actions already in the planning stages. We agree with the EPA’s proposed
            actions and consider recommendations 1 and 2 resolved. The full OIG evaluation
            of the agency response is also in appendix B




14-P-0325                                                                                  12
                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                                    POTENTIAL MONETARY
                                                      RECOMMENDATIONS                                                                BENEFITS (in $000s)

                                                                                                                        Planned
    Rec.    Page                                                                                                       Completion   Claimed    Agreed-To
    No.      No.                           Subject                             Status1        Action Official             Date      Amount      Amount

     1       11    Establish procedures for OARM personnel to                    O       Assistant Administrator for    10/31/14
                   conduct a quality assurance review of SSPP data                          Administration and
                   provided by the contractor and EPA program                             Resources Management
                   offices.
     2       11    Develop and implement procedures for maintaining                      Assistant Administrator for
                   and securing records associated with production of                       Administration and
                   annual SSPP data in accordance with the EPA’s                          Resources Management
                   Records Management Policy. Specifically, assure
                   that:
                      a. Fleet data reported in the SSPP are                     O                                      12/31/14
                         documented and accessible, and can be
                         reproduced using either the current fleet
                         database or by maintaining copies of
                         historical data reports.
                      b. SSPP waste diversion data are documented                O                                      10/31/14
                         for all facilities that can provide it, and specify
                         in future SSPP reports whether the waste
                         diversion rates are estimates or only
                         represent specific facilities.
                      c. Findings and results associated with the                O                                      10/31/14
                         acquisitions information in the SSPP report
                         can be reproduced, including records of the
                         data and methodology used. These records
                         should be properly maintained, and should
                         be accessible for the time period required by
                         the EPA’s Records Management Policy.




1   O = Recommendation is open with agreed-to corrective actions pending.
    C = Recommendation is closed with all agreed-to actions completed.
    U = Recommendation is unresolved with resolution efforts in progress.




14-P-0325                                                                                                                                             13
                                                                                     Appendix A

                           Scope and Methodology
We conducted our work from April 2013 to February 2014. We conducted this performance
audit in accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives. We believe that
the evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

We used the 2012 SSPP objectives as the benchmark for assessing how well the agency met its
goals under Executive Order 13514. We identified requirements for record keeping and internal
controls.

For each SSPP goal area, we assessed the EPA’s documentation of data origination and
collection methodology. We conducted interviews of both agency and contractor personnel who
had direct knowledge of the data collection, management and storage specifics associated with
the 2012 SSPP. For our review of the EPA’s electronics and data centers, we conducted an onsite
inspection of the National Computer Center data center at the EPA’s facility in Research
Triangle Park, North Carolina. We also reviewed utility bills, spreadsheets and guidance
documents to verify that the EPA had documentation of the original source for all data in the
2012 SSPP.

To follow up on our recommendation from the April 2011 EPA OIG report, EPA’s Plan to
Reduce Agency Greenhouse Gas Emissions Is on Track to Meet Executive Order 13514
Requirements, we reviewed the completed corrective actions taken by the agency and the
progress made by the agency in meeting its GHG reduction requirements.




14-P-0325                                                                                       14
                                                                                  Appendix B

Agency Response to Draft Report and OIG Comments
                    UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                 WASHINGTON, D.C. 20460


                                                 APR 16 2014                        OFFICE OF
                                                                                  ADMINISTRATION
                                                                                  AND RESOURCES
                                                                                   MANAGEMENT
MEMORANDUM

SUBJECT:      Response to OIG Draft Report Regarding Internal Climate Change Goals,
              OPE-FY13-0014

FROM:         Craig E. Hooks, Assistant Administrator

TO:           Carolyn Copper, Assistant Inspector General
              Office of Program Evaluation

Thank you for the opportunity to review your draft report, “EPA Met or Exceeded Most Internal
Climate Change Goals, but Data Quality and Record Management Procedures Need
Improvement” Project Number OPE-FY13-0014, dated March 5, 2014. It is important that the
Office of Inspector General recognizes that the EPA met or exceeded most federal sustainability
requirements under the Executive Order and provided most documentation to support its reported
FY 2012 accomplishments. The Office of Administration and Resources Management, in
partnership with other EPA offices and regions, provides environmental and sustainable
leadership with the federal government. The EPA was one of only three agencies out of 25
reporting that received a green scorecard on the Office of Management and Budget sustainability
scorecard for FY 2013. The EPA has achieved a green scorecard the last three years.

OARM offers comments as attachment to this memo. If you have any questions regarding our
response, please contact me at (202) 564-4600 or Yvette Jackson, deputy director, Facilities
Management and Services Division, at (202) 564-2030.

Attachments (2)

cc:    Renee Wynn
       Nanci Gelb
       Renee Page
       John Showman
       John Bashista
       David Updike
       Yvette Jackson
       Eric Lewis
       Asfara Moghis


14-P-0325                                                                                      15
                                                                             Attachment 1

    OARM and OEI Response to OIG Draft Report Regarding Internal Climate
        Change Goals Project No. OPE-FY13-0014 March 5, 2014

Response to the Recommendations:

1) Establish procedures for OARM personnel to conduct a quality assurance review of SSPP
data provided by the contractor and EPA program offices.

OARM response:

           OARM will update existing standard operating procedures to include federal staff
            sampling of data collected by the contractor to help ensure the accuracy of energy and
            water data. Expected completion: October 31, 2014
           OARM will examine the contractor’s compliance with the SOP for data quality
            control/quality assurance. Expected completion: October 31, 2014
           The EPA will provide more transparency and disclosure regarding its waste diversion
            data in the June 2014 SSPP and subsequent reports. Expected completion: October
            31, 2014
           OARM finalize a draft electronics stewardship SOP to emphasize the internal control
            processes necessary for ensuring accuracy of the EPEAT data reported to the OMB.
            Expected completion: October 31, 2014 (While the new SOP has not been finalized
            or distributed, a memorandum summarizing the new reporting process was distributed
            in November 2013 to the EPA reporting locations.)

 OIG Comment 1: We agree with the EPA’s proposed actions. Recommendation 1 is resolved.

2) Develop and implement procedures for maintaining and securing records associated with
production of annual SSPP data in accordance with the EPA’s Records Management Policy.
Specifically, assure that:
    a. Fleet data reported in the SSPP are documented and accessible, and can be reproduced
        using either the current fleet database or by maintaining copies of historical data reports.

OARM response:

           OARM will implement changes to the Automotive Statistical Tool database that
            holds fleet management data. Expected completion: December 31, 2014

       These changes will include:
        An update to the Vehicle Exemption field of the Master Record that will timestamp
          every change. The data will include the user, date and time of change, and what the
          exemption type was changed to.
        All the necessary back-end code necessary to create and report out on a “point-in-
          time” query snapshot of the fleet.



14-P-0325                                                                                        16
           A simple front-end tool where users can enter a specific date and AST would return a
            full data spreadsheet of what the fleet looked like on that date.
           OARM will also keep copies of historical data reports regarding fleet vehicles.

 OIG Comment 2: We agree with the EPA’s proposed actions. Recommendation 2a is resolved.

   b. SSPP waste diversion data are documented for all facilities that can provide it, and
      specify in future SSPP reports whether the waste diversion rates are estimates or only
      represent specific facilities.

OARM response:

           OARM will report the percent of facilities reporting waste diversion data in the June
            2014 and subsequent SSPPs. Expected completion: October 31, 2014

 OIG Comment 3: OARM provided a revised response on May 9, 2014:

          OARM will report waste diversion data in a more detailed and transparent
          manner. At a minimum, OARM will include in its report: a list of major facilities,
          whether or not an individual facility on that list reported waste diversion data, the
          waste diversion data reported by that individual facility, and a discussion of the
          methodology used to calculate the agency waste diversion rate derived from the
          individual facility data. OARM will include this in the SSPP due in June 2014
          and in subsequent SSPPs. Expected completion: October 31, 2014.

 We agree with the EPA’s revised response and the proposed actions. Recommendation 2b is
 resolved.

   c. Findings and results associated with the acquisitions information in the SSPP report can
      be reproduced, including records of the data and methodology used. These records
      should be properly maintained, and should be accessible for the time period required by
      the EPA’s Records Management Policy.

OARM response:

           OARM will develop procedures to ensure that records used for any future SSPP will
            be properly maintained and accessible for the required time period specified by the
            agency’s records management policy. Expected completion: October 31, 2014.
           OARM is in the process of finalizing a SOP for data extraction and explicit
            methodology used to determine the agency’s compliance with the goals specified in
            Executive Order 13514, Federal Leadership in Environmental, Energy, and Economic
            Performance. Expected completion: October 31, 2014

 OIG Comment 4: We agree with the EPA’s proposed actions. Recommendation 2c is resolved.




14-P-0325                                                                                         17
Response to Findings and Factual Accuracy:

At A Glance
 . . . the agency relies heavily on a contractor to collect the data used in the 2012 Strategic
Sustainability Performance Plan . . .

OARM response: As demonstrated during the course of this review, OARM collects and reviews
environmental performance data from many sources, including contractors and EPA
organizations.

 OIG Comment 5: The audit team verified water and GHG data from databases generated,
 collected and maintained by the contractor (i.e., the FY 2011 and FY 2008 Comprehensive
 Inventory Master spreadsheets and the Annual Energy and Water Yearbook). In our meeting
 with the contractor, they explained how they collect data for these areas and enter them into the
 databases. The OIG modified the report as follows:

         The agency relies heavily on a contractor to collect water and energy data used in
         the 2012 Strategic Sustainability Performance Plan….

Goal 6: Acquisition page 8
However, we could not confirm the agency’s assertion that it met or exceeded the Executive
Order requirement to procure 95 percent of new contracts with green attributes for 3
consecutive years.

OARM response: We request clarification regarding the exact 3 consecutive years that could not
be confirmed in the statement.

 OIG Comment 6: The years that could not be confirmed were FYs 2009, 2010 and 2011. The
 OIG modified the report as follows:

         However, we could not confirm the agency’s assertion that it met or exceeded the
         Executive Order requirement to procure 95 percent of new contracts with green
         attributes for 3 consecutive years (2009, 2010 and 2011).

Goal 7: Electronics and Data Centers pages 8-9
We could not validate the EPA’s claim that “virtualization is extensively used to support
database hosting” at the EPA’s data centers . . . we found that the agency’s claims about
virtualization applied to only one of its data center facilities.

OEI response: OEI does not agree with the report findings regarding data center virtualization
accuracy. The responses provided in summary and detail demonstrated substantial virtualization
across both NCC and non-NCC data centers. The EPA provided evidence of extensive and
growing virtualization across the agency, including evidence of 192 Oracle databases hosted on
virtual platforms within the NCC representing well over 90% of NCC Oracle databases. The
EPA also provided evidence of over 120 applications and application platforms hosted on virtual
servers.


14-P-0325                                                                                         18
OEI believes virtualization is already extensively used to support database hosting, and the EPA
currently is expanding virtualization to support the Web and application server tiers. The EPA’s
Federal Data Center Consolidation Initiative 2011 data shown below indicate that the EPA was
26% virtualized overall and 41% virtualized within the NCC; data for 2012 indicate growth such
that the agency was 38% virtualized overall and 71% virtualized within the NCC. The agency
continues to be aggressively virtualizing NCC hosted applications and platforms, which are
mostly database and Web application platforms.

 Year: 2011        Total              Total Physical    Percent            Percent
                   Operating                            Physical           Virtualized
                   Systems
 All EPA           2,906              2,165             75.40%             25.50%
 NCC Only          747                441               59.04%             40.96%

 Year: 2012        Total              Total Physical    Percent            Percent
                   Operating                            Physical           Virtualized
                   Systems
 All EPA           3,377              2,094             62.01%             37.99%
 NCC Only          2,074              597               28.78%             71.22%


 OIG Comment 7: The OIG concurs that the agency’s National Computer Center has made
 significant strides in virtualizing its database hosting infrastructure. However, as of 2012, the
 agency’s data centers had only virtualized 38 percent of their hosting infrastructure.

 The OIG modified the report as follows (beginning with sentence 4 after Goal 7: Electronics
 and Data Centers), to reflect the National Computer Center’s progress in the area of database
 hosting virtualization:

        We also reviewed the EPA’s claim that “virtualization is extensively used to
        support database hosting” at the EPA’s data centers. Virtualization enables
        multiple operating systems to be located and independently operated from one
        physical server instead of the “one server one operating system” platform
        previously used. The EPA’s implementation of virtualization helps the agency
        become more energy efficient by restructuring processes associated with server
        operations. The consolidation of physical servers can save energy, translating to
        savings of up to 80 percent in data center energy costs while reducing
        infrastructure and capital costs. In this area we found that the EPA’s National
        Computer Center has made significant strides in virtualizing its database hosting
        infrastructure. As of 2012, the National Computer Center had virtualized
        71 percent of its hosted databases. However, as of 2012, all EPA data centers had
        only virtualized 38 percent of their hosting infrastructure. We also found that the
        EPA lacks internal controls to validate its electronics stewardship data.




14-P-0325                                                                                            19
Areas Where Improvements Are Needed

EPA Relies on Contractor to Verify SSPP Data page 10
A majority of the data reported in the 2012 SSPP related to GHG reduction, water use and local
planning was managed by an EPA contractor. However, sufficient internal controls were not in
place to verify the data generated and collected by the contractor. The EPA only seeks to verify
the data if it sees an issue or problem with the data during a “visual check.”

OARM response: Utility bills are sent to the contractor for use in preparing the SSPP data. The
EPA has begun to conduct a sampling review of bills compared to the generated report to verify
accuracy, and a future metering system will also permit an easier consolidation and verification
of the data.

The EPA believes that the “visual check” is an effective control mechanism. The EPA reports
energy use quarterly, in multiple digital metrics and graphic forms. This includes, but is not
limited to, current quarter vs. previous year’s quarter performance, rolling four-quarter
performance data over a 3 year period, and most recent four quarters vs. previous fiscal year.
These reports are on an individual lab basis and are distributed to HQ facilities staff, HQ
environmental management systems staff, and every reporting facility as they are issued.

OARM disagrees that a contractor manages the majority of information regarding “local
planning.” Information about activities related to “local planning” is collected from many
sources and no contractor has been tasked with collecting “local planning” participation
information specifically, nor reports out on this data.

 OIG Comment 8: Since “local planning” includes the partnership of other agencies such as the
 U.S. Department of Transportation and the U.S. Department of Housing and Urban
 Development, the OIG took local planning out of this statement as we recognize this data is
 collected from a variety of sources (i.e., the contractor and EPA). However, the OIG continues
 to believe there is a lack of sufficient internal controls. Based on information provided to the
 audit team, the reporting requirements set by the contractor included the collection of data and
 performing their own quality assurance check. Specifically, according to the contractor
 “the agency sometimes checks data for special projects, for example the Cincinnati Andrew W.
 Breidenbach Environmental Research Center had special projects they were interested in
 looking at in more detail. They do not routinely or frequently ask for utility bills. There is no
 formal process.” The contractor also stated that the agency “does do a bit of a spot check. They
 pay more attention to special projects.” Based on the exit conference between the EPA and the
 OIG, the OIG modified the report to include the following statement (under the section
 EPA Relies on Contractor to Verify SSPP Data):

        According to an EPA official, first-line facility managers check the data. While
        there is additional data quality review at headquarters, the OIG does not believe
        these data quality review processes are adequate.




14-P-0325                                                                                        20
EPA Relies on Contractor to Verify SSPP Data page 10
Lack of sufficient internal controls resulted in the inclusion of erroneous data in the SSPP.
Specifically, the contractor did not correctly report business travel emissions reductions for FY
2011.

OARM response: We have re-verified reported SSPP emissions data for business travel but
found no error in the data provided in the plan. In support of this determination, we have
attached material from our files supporting the statement made in the SSPP executive summary
regarding reductions in business travel related emissions (See Business Travel Emissions
attachment). We believe the data provided to the OIG was annual data that is used to meet
regular reporting requirements, and that the business emissions travel data contained in the
executive summary was a “special” one-time pull of data (May 2012) to highlight progress and
the environmental benefits of the video conference initiative started in FY10. The data taken
from the “special” one-time data pull would not match the regular reporting data provided on a
fiscal year basis.

 OIG Comment 9: There is no explanation in the SSPP executive summary that would alert the
 reader to the fact that the business emissions travel data contained in the executive summary was
 a “special” one-time pull of data. Nor is the reader alerted to the fact that the data taken from the
 special one-time data pull would not match the regular reporting data provided on a fiscal year
 basis. In fact, any reference or explanation of what a special one-time pull of data is, and its
 impact on the reported SSPP emissions data, is absent from the SSPP. The OIG modified the
 report as follows:

        Lack of sufficient internal controls resulted in the inclusion of undefined data in
        the SSPP. Specifically, because mileage data for privately owned vehicle usage
        are available on an annual basis only, the contractor did not have corresponding
        quarterly data for privately owned vehicles. The contractor had to use substitute
        privately owned vehicle data to calculate total EPA business travel GHG
        emissions for the second quarter of FY 2011 through the first quarter of FY 2012.
        The EPA deferred to the contractor to explain the substitute data. However, the
        contractor’s response did not explain how the substitute data was developed.
        EPA’s lack of sufficient internal controls may increase the risk that inaccurate
        data is reported or accomplishments could be over- or understated in the SSPP.

Improved Controls Needed for Electronic Acquisitions Database page 10
The agency did not implement an internal control process that ensures accuracy of Federal
Electronic Challenge acquisitions.

OARM response: For fiscal years 2009 through 2012, the EPA used the Federal Electronics
Challenge reporting structure to collect and synthesize agencywide electronics stewardship data
needed to report to the Office of Management and Budget on the agency’s sustainability goals. In
FY 2012, the FEC announced the end of the awards and data collection program. Beginning
with FY13 data collection, OARM and OEI agreed on a revised reporting structure and process
(using legacy FEC contacts) to collect and summarize information on the agency’s acquisition of
electronics, specifically the EPA’s Electronic Product Environmental Assessment Tool®


14-P-0325                                                                                          21
registered product purchases. The new process leverages OARM’s annual environmental
stewardship reporting process with data accuracy and quality reviews performed at the local site,
as well as at the centralized/consolidated level. In addition to the new process, the OARM and
the OEI have collaborated on improving the process further and investigating options for
improving data and internal quality controls for electronics stewardship.

 OIG Comment 10: The OIG acknowledges that the agency is taking proactive steps in this area
 and concurs with these efforts.

Improved Controls Needed to Verify Data Center Performance Metrics page 10
The EPA does not have sufficient internal controls to verify performance metrics for its data
centers. As a result, we found that some accomplishments reported in the SSPP applied only to
the EPA’s National Computer Center in Research Triangle Park, North Carolina, rather than to
the EPA as a whole.

OARM response: NCC is the EPA’s primary application hosting data center and does dominate
the analysis due to the large concentration (over 60%) of EPA operating systems and
applications hosted there. However, performance metrics are aggregated for the agency and the
NCC achievements are accurately included in the aggregate which represents the agency’s
accomplishments.

 OIG Comment 11: The OIG agrees that the National Computer Center is the agency’s primary
 database hosting location and has made significant strides in virtualizing its database hosting
 infrastructure at the National Computer Center. However, as of 2012, all agency data centers
 were only 38 percent virtualized. This distinction was not made in Goal 7 of the SSPP, thereby
 over-representing the agency’s accomplishments in the area of virtualization. Additionally, our
 review in this area found that the EPA did not have controls in place to verify that performance
 data provided was accurate and represented the posture of the entire agency. As a result, the OIG
 found that sufficient internal controls over data verification were not in place.




14-P-0325                                                                                      22
 Exhibit 2
 Annual Rate of GHG Scope 3 Emissions Air and Ground Business
 Travel                                                               4Q FY10      1Q FY11     2Q FY11      3Q FY11      4Q FY 11     1Q FY 12
 Current and 3 Previous Quarters Business
 Travel Air and Rental Car Emissions            >>>>>>>>>>>>           19,561       18,963       18,995       17,554       15,809       13,987 MTCO2E

 Emissions Data by Quarter
                                            FY 2010                                                 FY 2011                          FY 2012
                      1st Qtr         2nd Qtr       3rd Qtr         4th Qtr       1st Qtr      2nd Qtr    3rd Qtr        4th Qtr     1st Qtr

 GHG Emissions
 from Air Travel       4,087           3,669         4,518           4,102         3,579        3,727        3,332       2,660        2,067
 (MTCO2e)
 GHG Emissions
 from Car
                        779             712           900             794           689          686         646          490          379
 Rentals
 (MTCO2e)
 Total
                       4,866           4,381         5,418           4,896         4,268        4,413        3,978       3,150        2,446
 (MTCO2e)

                   Current and
                   previous 3          MTCO2
                   quarters         equivalents
                   4th Q FY 2010        19,561                   This metric always gives us 12 months of travel data to compare
                   1st Q Fy 2011        18,963                   This eliminates any regular/seasonal swings in travel by always including
                   2nd Q Fy 2011        18,995                   four quarters of business air and ground travel.
                   3rd Q Fy 2011        17,554
                   4th Q FY 2011        15,809
                   1st Q FY 2012        13,987                                                      72%
                                                                                                    28% reduction

 Data is derived from GSA Travel Trax program that pulls in every agencies travel data from the various travel management systems (i.e. gov trip) and
 converts them to Metric Tons of CO2 Equivalents emitted. It is used by all/most federal agencies in calcing their Scope 3 Business Air and Travel
 emissions
14-P-0325                                                                                                                                      23
                                                                              Appendix C

                                    Distribution
Office of the Administrator
Assistant Administrator for Administration and Resources Management
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Education
Principal Deputy Assistant Administrator, Office of Administration and Resources Management
Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Director, Office of Administration, Office of Administration and Resources Management
Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Deputy Director, Office of Acquisition Management, Office of Administration and
       Resources Management
Deputy Director, Office of Policy and Resource Management, Office of Administration and
       Resources Management
Director, Headquarters Procurement Operations Division, Office of Acquisition Management,
       Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Administration and Resources Management
Audit Follow-Up Coordinator, Office of Acquisition Management, Office of Administration and
       Resources Management




14-P-0325                                                                                24
